<html>
<title> - PROGRESS ON IMPLEMENTING OVERSEAS PRESENCE ADVISORY PANEL RECOMMENDATIONS</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]






       PROGRESS ON IMPLEMENTING OVERSEAS PRESENCE ADVISORY PANEL 
                            RECOMMENDATIONS

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                        INTERNATIONAL RELATIONS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 15, 2000

                               __________

                           Serial No. 106-136

                               __________

    Printed for the use of the Committee on International Relations


        Available via the World Wide Web: http://www.house.gov/
                  international<INF>--</INF>relations

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
66-308 CC                   WASHINGTON : 2000





                  COMMITTEE ON INTERNATIONAL RELATIONS

                 BENJAMIN A. GILMAN, New York, Chairman
WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           MATTHEW G. MARTINEZ, California
ILEANA ROS-LEHTINEN, Florida         DONALD M. PAYNE, New Jersey
CASS BALLENGER, North Carolina       ROBERT MENENDEZ, New Jersey
DANA ROHRABACHER, California         SHERROD BROWN, Ohio
DONALD A. MANZULLO, Illinois         CYNTHIA A. McKINNEY, Georgia
EDWARD R. ROYCE, California          ALCEE L. HASTINGS, Florida
PETER T. KING, New York              PAT DANNER, Missouri
STEVE CHABOT, Ohio                   EARL F. HILLIARD, Alabama
MARSHALL ``MARK'' SANFORD, South     BRAD SHERMAN, California
    Carolina                         ROBERT WEXLER, Florida
MATT SALMON, Arizona                 STEVEN R. ROTHMAN, New Jersey
AMO HOUGHTON, New York               JIM DAVIS, Florida
TOM CAMPBELL, California             EARL POMEROY, North Dakota
JOHN M. McHUGH, New York             WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   GREGORY W. MEEKS, New York
RICHARD BURR, North Carolina         BARBARA LEE, California
PAUL E. GILLMOR, Ohio                JOSEPH CROWLEY, New York
GEORGE RADANOVICH, California        JOSEPH M. HOEFFEL, Pennsylvania
JOHN COOKSEY, Louisiana
THOMAS G. TANCREDO, Colorado
                    Richard J. Garon, Chief of Staff
          Kathleen Bertelsen Moazed, Democratic Chief of Staff
               Kristen Gilley, Professional Staff Member
                     Liberty Dunn, Staff Associate




                            C O N T E N T S

                              ----------                              

                                WITNESS

                                                                   Page

The Honorable Bonnie R. Cohen, Under Secretary for Management, 
  U.S. Department of State.......................................     4

                                APPENDIX

Prepared statements:

The Honorable Benjamin A. Gilman, a Representative in Congress 
  from New York and Chairman, Committee on International 
  Relations......................................................    22
The Honorable Bonnie R. Cohen....................................    23

U.S. Department of State Charts:

Overseas Building Program List of Forty New Posts in the 1990's..    35
Overseas Building Program U.S. Government Overseas Presence by 
  Agency.........................................................    36
Foreign Service Institute Crisis Management Exercises in FY 1999.    37
Overseas Building Program A/FBO Capital Appropriations: FY 1983-
  2000...........................................................    38

 
       PROGRESS ON IMPLEMENTING OVERSEAS PRESENCE ADVISORY PANEL 
                            RECOMMENDATIONS

                              ----------                              


                        THURSDAY, JUNE 15, 2000

                          House of Representatives,
                      Committee on International Relations,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 11:40 a.m. in 
room 2172, Rayburn House Office Building, Hon. Benjamin A. 
Gilman (Chairman of the Committee) presiding.
    Chairman Gilman. The Committee will come to order.
    Today we are continuing our hearings on the important 
recommendations of the Overseas Presence Advisory Panel. The 
panel's report, entitled ``America's Overseas Presence in the 
21st Century,'' provided many useful, and in some cases, far 
reaching recommendations to improve the efficiency and 
effectiveness of our State Department and the conduct of 
diplomacy.
    We started this series of hearings in February 2000 and we 
heard from the panel members at that time. I believe the panel 
highlighted important issues and we continue to support many of 
the recommendations as a means for creating a stronger State 
Department.
    Mutual scheduling difficulties delayed hearings from the 
State Department until today but that is probably to our 
benefit, as we can discuss what has been done in the 
intervening months as well as reviewing the recent report on 
the rightsizing project. We want to see how the State 
Department is measuring its progress on these recommendations.
    Upon the release of the panel's report, the President 
announced that the Secretary of State would lead a cabinet 
committee to implement the recommendations on rightsizing. We 
have heard about the need for employing the management strategy 
of matching policy with resources for many years. It seems this 
idea of rightsizing may finally be gaining traction because of 
the high level involvement of the White House and the State 
Department. I recognize that developing a rightsizing policy 
with its implications across government agencies is difficult. 
For this undertaking to be effective, it requires continued 
interest and top level direction supporting interagency 
coordination with those agencies who have representatives 
overseas.
    It is a given that diplomacy requires an overseas presence. 
Yet recent studies indicate that the State Department needs to 
modernize its domestic and overseas operations.
    There are reasons, such as technology improvements, 
changing policy priorities or security concerns, that demand a 
reassessment of how that overseas presence is designed, who has 
the authority to manage these issues, and a need to articulate 
a mission with a results-oriented perspective. The State 
Department should have the lead in directing foreign policy 
structure with a strong chief of mission authority.
    A review of your statement indicates you are laying the 
groundwork for an incoming administration. However, I also hope 
the Department and the White House will try to take some 
decisions so as not to delay necessary management improvements. 
I am interested in supporting those efforts and intend to keep 
congressional interest alive so that the energy spent now will 
in fact be a worthwhile investment.
    Having visited many of our posts overseas, I know that we 
have talented people who can adapt and probably would welcome a 
new approach to diplomacy and serving our interests, as 
suggested by the panelist's report.
    I will now turn, before turning to our witnesses, ask Mr. 
Gejdenson for any comments he may have.
    Mr. Gejdenson. Mr. Chairman, I will waive opening comments 
so we can get to the witnesses.
    Chairman Gilman. Mr. Bereuter.
    Mr. Bereuter. Thank you, Mr. Chairman. I appreciate this 
hearing very much and the fact that you are trying to keep this 
good product alive and move it toward implementation. I think 
we can all agree that the Overseas Presence Advisory Panel 
[OPAP] did an outstanding job in reviewing the way the United 
States conducts its overseas activities and making 
recommendations for reform. I frankly have been concerned that 
implementation of the panel's recommendations has been 
proceeding more slowly and unevenly than we would have liked. I 
hope that the Under Secretary can relieve my concerns in 
regards to the implementation of the recommendations.
    A particular concern of mine has been embassy security. I 
have been disappointed that the State Department has not 
requested adequate funding for enhanced security despite the 
Crowe panel's recommendation. I was pleased to see the 
increased request of almost $1 billion this fiscal year and the 
appropriate Committee decision to meet that request.
    I know the Department has worked hard to improve physical 
security. However, a fundamental problem remains largely 
unaddressed. That problem is a threat posed to our embassies 
overseas from large vehicular bombs. Admiral Crowe's report, 
the OPAP report, and numerous senior State Department officials 
have emphasized that such devices represent the greatest 
physical threat to the lives and welfare of our citizens and 
our employees. Over 80 percent of our overseas missions lack 
the adequate 100-foot setback to protect against such attacks.
    There is no substitute for purchasing, constructing, or 
leasing property and new facilities that give us the necessary 
setbacks. Unfortunately, it is also true that the Office of 
Foreign Buildings, [FBO] for a variety of reasons described in 
the OPAP report and elsewhere, is not and never will be able to 
address this problem in a timely manner unless some very major 
changes are implemented. It often takes literally decades to 
work through the labyrinth of bureaucracy associated with 
constructing a new embassy.
    In part, the problem stems from the scoring rules imposed 
by the OMB that require all the costs of construction or lease 
purchase be scored in the first year. This makes it extremely 
difficult to get the necessary appropriations. It also costs 
taxpayers millions of dollars by forcing the Department to rely 
on short-term lease arrangements which are far more expensive 
in the long run than to either lease purchase or sales 
leaseback.
    I have tried repeatedly but unsuccessfully to exempt the 
Department from this scoring rule. My efforts will continue. It 
is not simply a problem with the Democratic Administration. It 
is a problem that has existed in the administrations of both 
parties, and the OMB policy simply has to be changed.
    The OPAP report proposes an innovative approach toward 
dealing with the problem by establishing a performance-based 
government corporation, the Overseas Facilities Authority, the 
OFA, to replace the FBO. Such a corporation should have the 
ability to use the full range of financial tools and receive 
funds from rents, appropriations, asset sales, forward funding 
commitments, Treasury loans, and retainer service fee revenues. 
It should also have authority to engage in cost effective 
financing alternatives such as lease purchase and sales 
leaseback.
    The OPAP report concludes that ``in order to undertake the 
fundamental change in the funding and management of U.S. 
Government overseas assets, the FBO should be replaced by an 
OFA with more authority, more flexibility and increased 
participation by U.S. Government agencies.''
    The report makes a compelling case for why a public 
corporation would be a more efficient and effective way of 
managing U.S. Government facilities overseas and of dealing 
with the urgent issues of making these facilities more secure. 
Yet the Department appears to have rejected the idea. I don't 
know why. I don't understand it. I want to know why this is the 
case.
    It seems to me that there would be many advantages in 
proceeding with the OPAP recommendations to replace the FBO 
with a government corporation. One of these advantages is we 
will have to secure embassies and consulates years earlier than 
would otherwise be the case. All we are really doing is making 
more American lives vulnerable for longer periods of time.
    I hope the State Department will look again at this 
excellent recommendation from people whose opinions you ought 
to respect and that the Department staff study and act on 
capital improvements and then move expeditiously toward 
implementing the proposal. There are many outstanding features 
of this report, but I do hope that you are going to focus on 
this one because American lives are at stake.
    Thank you, Mr. Chairman.
    Chairman Gilman. Thank you, Mr. Bereuter. We want to 
welcome Ms. Bonnie Cohen, the Under Secretary of Management. 
Ms. Cohen holds an MBA from Harvard and prior to coming to the 
State Department in 1997 she was Assistant Secretary for Policy 
Management and Budget at the Interior Department. We appreciate 
your coming here today to discuss the progress on the 
implementation of the Overseas Presence Advisory Panel. We look 
forward to your statement and appreciate your efforts to 
establish these ideas within the State Department throughout 
the government.
    We want to apologize for the delay in your testimony. We 
had these markups that were important for us today.
    I also want to recognize Ambassador Elizabeth Raspolic, who 
is serving as the Director of the Interagency Rightsizing 
Committee. Ambassador Raspolic has been in the Foreign Service 
for 27 years and most recently was Ambassador to Gabon. We just 
had the Minister of Defense from Gabon visit yesterday.
    We welcome Ambassador Chamberlin, who is representing the 
International Narcotics Bureau, and we thank Ms. Chamberlin for 
being with us today.
    So please proceed. If you would like to put your full 
statement in the record, we will accept it without objection. 
You may summarize your statement. Ms. Cohen.

STATEMENT OF THE HONORABLE BONNIE R. COHEN, UNDER SECRETARY FOR 
              MANAGEMENT, U.S. DEPARTMENT OF STATE

    Ms. Cohen. Thank you very much, Mr. Chairman, and Members 
of the Committee. I will submit the statement for the record 
and summarize, although I am going to read the first page 
because I think it is very important.
    Many experts heralded the end of the Cold War as ending the 
need for American global engagement. As the last 10 years have 
demonstrated, the dramatic changes in the world's political and 
economic landscape have meant just the opposite. Today we are 
confronted with a host of international problems that affect 
America's security and domestic welfare, from financial crises 
and the closing of markets to global environmental challenges, 
AIDS, terrorism, drug trafficking, money laundering and the 
spread of weapons of mass destruction. These foreign policy 
problems are America's national security challenges.
    Our overseas presence provides the essential underpinnings 
of our ability to defend America's security, to promote its 
prosperity and to meet the new global challenges. It is our 
first line of defense ahead of the military. It is when 
diplomacy fails that the military comes in, and recognizing 
this, we must reinvest in the conduct of our foreign policy. 
The OPAP panel recognized this and said ``The U.S. overseas 
presence, which has provided the essential underpinnings of 
U.S. foreign policy for many decades, is near a state of 
crisis. Insecure and often decrepit facilities, obsolete 
information technology, outmoded administrative and human 
resources practices, poor allocation of resources and 
competition from the private sector for talented staff threaten 
to cripple our nation's overseas capability with far reaching 
consequences for national security and prosperity. The 
condition of U.S. posts and missions abroad is unacceptable. 
The panel fears that our overseas presence is perilously close 
to the point of system failure.''
    The Secretary of State welcomed OPAP's emphasis and its 
urgency in improving the conduct of our foreign policy, our 
overseas mission infrastructure and capital plan, the 
importance of investing in human resources and the 
indispensable nature of universal representation. We strongly 
agreed with the panel's focus on the need to ensure stronger 
interagency teamwork under chiefs of mission abroad and the 
President and the Secretary of State.
    I have a few handouts--I don't know if they have been 
handed out--that give you some historical perspective on what 
has happened to the State Department in the last 4 years, and I 
actually remember the charts.
    You will see from those charts that in the last decade the 
State Department opened approximately 40 new posts overseas 
with no real increase in the budget. The Department was in the 
process of cannibalizing its resources.
    The second chart shows you that the State Department is 
only one of the agencies overseas, and indeed, while it is the 
biggest, much of its size is to provide administrative support 
to the other agencies. So it is very important that we work on 
an interagency basis, which the panel emphasized, I think you 
have emphasized in your remarks, and is the reason that I am 
with the two people who are chairing our interagency panels.
    The third chart shows you the crisis management exercises 
in the State Department starting in 1998. I think that this is 
a particularly startling chart because it shows you that in the 
process of reducing the budget and opening new embassies 
decisions were made that we now all recognize as too short-
sighted, including the total dismemberment of crisis management 
training. We have been in the process, with bipartisan support, 
of rebuilding the kinds of efforts we have to do, management 
efforts, to have a strong department and be able to protect our 
people.
    The final chart, I think, directly supports the point that 
you were making, Mr. Chairman, about the FBO and the need for 
capital appropriations. You see from this chart that the only 
time in the last decade that the State Department has gotten 
substantial infusions of funds has been after bombings, when 
people, both Americans and foreigners, embassy employees and 
civilians, have lost their lives. That is simply not 
acceptable. We have to have sustained funding, as Admiral Crowe 
so eloquently put it.
    When I first came to the Department, 3 years ago now, I 
received approximately two feet of studies on what needed to be 
done at the Department. We now have Admiral Crowe's excellent 
report and the OPAP report, and we welcome your support for the 
OPAP report. This is an important time. We are in the process 
of implementing the OPAP recommendations. The Secretary has 
accepted them enthusiastically, although there are some details 
to be worked out. I think all of us are concerned that, as we 
transition administrations, this effort does not lose its 
momentum and we don't have to have additional studies.
    Now, I will go to the recommendations and give you a sense 
of where we are. The Secretary chaired a cabinet level meeting 
of all of the agencies who operate overseas and there was 
unanimous support for the interagency implementation of the 
rightsizing recommendations. We were very heartened to get that 
support and have moved forward. One of the most important 
recommendations was from the Attorney General, who suggested 
that we organize an interagency law enforcement rightsizing 
group, which Ambassador Chamberlin is heading up.
    That is critically important because, as you know, the most 
rapid growth in overseas presence today is law enforcement and 
it is very important that that be coordinated. The Attorney 
General even went so far as to suggest that there may be 
opportunities for memoranda of understanding with some of the 
law enforcement agencies who are present in specific posts to 
assist in the responsibility of other agencies so that we 
wouldn't have to have as many people overseas.
    We have had a very active interagency group looking at 
rightsizing. They visited six embassies, Amman, Bangkok, Mexico 
City, New Delhi, Paris and Tbilisi. The idea was to develop 
both general recommendations that we could apply across 
embassies and then recommendations for these six posts. They 
have reports on each embassy and they have done, I think, an 
outstanding job. An interagency group visited each embassy, and 
the more general recommendations are that we can begin to bring 
back administrative functions to the United States with 
appropriate communications to support them.
    The final report from the interagency group will be 
available soon and then will go to the Secretary. So the 
Secretary has not had the chance to review and endorse the 
recommendations, but the interagency group is recommending, for 
example, that our financial center, which is in Paris in its 
own large facility, can be brought back to the United States 
and operate out of Charleston, where we also have a financial 
facility. Our finance people also think that is possible. So 
that type of recommendation is on the table.
    In addition, there are recommendations for agencies to 
share certain administrative functions overseas that would 
permit staff reductions. For example, in Mexico City every 
agency has a personnel specialist who classifies people, and I 
don't want to get into that because it is really detailed and 
very bureaucratic, but it appears with the right computer 
support that we could have just one agency do it for everyone 
and bring back the other support people. We are very encouraged 
by that.
    In addition, we have specific recommendations for each 
embassy.
    Ambassador Rohatyn, who has been in the forefront of this 
effort, is now in the midst of working with his interagency 
group at Embassy Paris. We will be complementing his work here 
by developing a plan this summer that will substantially change 
the structure of that embassy and be a model for other 
embassies.
    In the FBO area, which I know is a particular interest of 
yours, quite honestly, I endorse everything you said. I think 
we need more money; we need sustained funding. We need a better 
functioning FBO and we need the kinds of financial reforms that 
you talked about. We have had a group working on it. They are 
making proposals that will, with the Secretary's endorsement, 
be taken forward in the Administration.
    We may have what I hope is not a real difference over this 
corporation. The OPAP report is recommending a performance-
based organization, which requires legislation and is the route 
that the Internal Revenue Service took in their reform.
    Mr. Bereuter [presiding]. Madam Secretary, may I interrupt 
you to tell you that as long as you don't eliminate the FBO, no 
matter how sustained the funding is, you are not going to be 
able to cope with the huge backlog of security-related 
consulate and embassy construction, reconstruction, and 
retrofitting. But you don't agree with me entirely because my 
basic point is that so far the State Department is rejecting 
that fundamental reform, am I correct? You are not endorsing a 
replacement for the FBO?
    Mr. Gejdenson. Would the gentleman yield for a second?
    Mr. Bereuter. Yes, I yield.
    Mr. Gejdenson. Not to defend the State Department, but my 
question is, what is the difference between creating a new kind 
of department to do this or just getting the authorities and 
structural reforms in the existing operation? Sometimes I find 
the disruption----
    Mr. Bereuter. The difference is that the current FBO is not 
allowed to engage in the more innovative lease and purchase 
arrangements, and we can't given the current arrangements, 
escape the OMB scoring mechanisms. Therefore all capital 
construction costs are up front immediately.
    Mr. Gejdenson. If the gentleman would yield, then what if 
you simply gave those same powers to the existing operation?
    Mr. Bereuter. Then you still are left with the requirement 
to change the law and make an exception of scoring on OMB, and 
that seems to be very difficult for OMB to accept because they 
are concerned about the precedent. Of course, it is always more 
expensive for the government to construct a building by far 
than for the private sector to build that same building, and 
the gentleman knows some of the reasons.
    Under Secretary, please proceed. I went farther in this 
than I intended in interrupting you.
    Ms. Cohen. The rest of my testimony is quite brief. In 
information technology the State Department has made enormous 
progress, again with bipartisan support. Two years ago we had 
no Internet. Now we have 85 percent of overseas post on the 
Internet. Yet we are still concerned. You are considering our 
budget; we had asked for $17 million to wire two embassies 
overseas to allow agencies to speak to each other, and to 
demonstrate the benefit of information sharing. We were 
authorized in your markup to do this, but it was to come out of 
our existing budget base. But our existing budget base is 
really inadequate for our current needs.
    In the human resources area you will be hearing from our 
new Director General of the Foreign Service and Director of 
Human Resources. We have completed the McKinsey and Company 
study on the war for talent. We are in the process of 
implementing the recommendations from that study, and yesterday 
I went to a very exciting half-day session at FSI where we 
introduced the new Center for Leadership and Management 
Training. In the past the State Department has not had 
management training, and management is key to the Department's 
future success. So we are excited about that.
    I know you have heard about the Consular Affairs Bureau. 
That is an outstanding example of a bureau that has strong 
leadership, is very sensitive to the American public and the 
kinds of services they need. We are considering the OPAP 
recommendations in this area, particularly the ones that give 
consular services control of their own people.
    The OPAP Report called for Ambassadorial authority to be 
strengthened and made more clear. Carolyn Lowengart is here. 
She is in charge of this issue for the Department and will 
answer any questions. Before you is a letter that goes to new 
Ambassadors, giving them their charge. We will be working to 
reform that letter, but we will wait to make it final until 
there is a new administration, since it will be theirs. I know 
that you have had quite a few presentations on the efforts we 
have made in overseas security in the last 2 years under Dave 
Carpenter and with FBO. I could share with you the many cables 
I am now getting back from Ambassadors saying that they really 
feel, even in facilities that don't have adequate setback, that 
they are getting the kind of attention they need and are better 
protected than they had been in the past.
    Thank you very much. I would be glad to answer any 
questions.
    [The prepared statement of Ms. Cohen appears in the 
appendix.]
    Mr. Bereuter. Thank you, Madam Under Secretary. I want to 
turn first to the distinguished Ranking Member, the gentleman 
from Connecticut, before we go to vote.
    Mr. Gejdenson. Thank you. Let me ask a couple of quick 
questions. I think I like your idea on the back office. If you 
look at modern businesses, they don't place in the field every 
function that they have, and obviously in smaller areas you 
might only need two-thirds of a person but it is a little hard 
to achieve that. I also suggest you look at not putting it all 
in Washington, D.C., but look at spreading it around to other 
places where we might have facilities existing, former military 
bases, whatever, where we may have some other functions 
together.
    Some functions that you might need travel for you might 
look at regional facilities, for instance, a lot of back 
offices for American companies are now someplace else. For 
functions that might need some visits, you could pick obviously 
countries that are friendly countries, that pose less of a 
security threat. Countries that speak the English language or 
have good access to educated people obviously make it easy. So 
I think that makes a lot of sense.
    Congressman Bereuter and I have, I think, some difference 
on the funding issue because I think that it is a general 
problem through government that we buy an aircraft, an engine, 
we pay for it in 1 year. The advantage obviously for State to 
pay for these embassies over the long haul is that you can get 
a lot more of them started and done, but then we have the 
general problem with procurement, whether it is a bridge, a 
building, or something else I think it is something you have to 
work out.
    Let me ask you, I was not a supporter of the reforms that 
occurred in the last session of Congress, taking into State a 
number of other departments and agencies, and I am getting some 
information that says that State is now looking at taking over 
more of USAID's functions and ESF and other areas and creating 
repetitive, in a sense, systems. In some cases maybe USAID 
doesn't have enough staff to do it, but it seems to me now that 
when you merge, rather than create a duplicate function to 
manage these systems in State, that what you might need to do 
is add some personnel to USAID. But it makes more sense, I 
think, to keep USAID functioning and not to just have State and 
USAID doing the same kinds of things. Am I wrong in the 
information that I have that State is seriously looking at a 
number of USAID functions and management of development 
programs?
    Ms. Cohen. Yes.
    Mr. Gejdenson. That is very good news. I have very few 
other questions and it is so seldom that you get such an 
absolute answer so that, I will just have to----
    Ms. Cohen. Would you like me to go on?
    Mr. Gejdenson. Actually, I would like you not to have any 
qualifications to that.
    Ms. Cohen. I don't have any.
    Mr. Gejdenson. OK. Great. Go ahead.
    Ms. Cohen. This has to do with grants management. What has 
happened is that we found, more and more, what had been in the 
past grants management from USAID, was drifting over to us as 
we spent the money. We really aren't staffed to do that 
adequately or to do it in a way that ensures the protection of 
the resources. This first came to our attention as different 
divisions asked for staff to do grants administration. So under 
the CFO we put together a group to look at this issue with 
USAID, and quite honestly, our preference is that the functions 
stay with USAID. We will work with them, but we have no 
intention of duplicating their very good efforts. I think we 
have the same objective you have.
    Mr. Gejdenson. That is reassuring. Let me say that 
information I have been getting was that people at State 
thought they could move a number of these functions to State 
from USAID without authorization, just by simply taking the 
action. I think that would be a long-term mistake, that the 
idea of having an aid operation that is focused on its 
traditional responsibilities makes a lot of sense for the 
country; and in every administration it forces a focus not just 
on the short-term geopolitical interests of the aid-recipient 
but the long-term development interests.
    So I thank you for that response and say to you that it is 
something that I am going to continue to watch.
    I think--again, I was not a supporter of the changes and 
hope that some lines will be kept there so that there is an aid 
agency with a traditional commitment to helping the poor and 
doing the right kinds of things there.
    I commend you for many of the other proposals you are 
making in the area of rightsizing and trying to make the 
agencies more efficient.
    The last thing I would like to say, one of the great 
frustrations, as oftentimes we know, the agencies are 
understaffed. In some ways, the most visible part to the 
average citizen of the operation of the State Department are 
the consular services, like the Motor Vehicle Department is the 
public face by which the people judge their government. You 
stand in line for 3 hours at the Motor Vehicle Department, and 
they tell you to go to another line. It tends to give you a bad 
taste for government. I can't tell you how many times, and I 
know they are understaffed, and I know it is difficult.
    We had one case where a young lady, a dual citizen, was 
robbed of all her belongings in a Latin American country. She 
could get nowhere with the American embassy. Her other 
citizenship was Israeli. She got a passport the same day.
    I then called the embassy to get her a visa, the paperwork 
because now she was traveling on an Israeli passport to come 
back to Connecticut. Yes, 5 days later, after several calls 
from me, she finally got a visa.
    I know people are overburdened. I know that we are--a lot 
of it is our fault. We don't give them the funding. But when 
Americans are stuck, and they get no help--we have got to get 
our consular officials to understand in a lot of ways what 
people think about the State Department, what we do overseas, 
is a function of that consular office. They still have got to 
be a friendly face to American citizens.
    Ms. Cohen. If I could just answer that.
    I think Mary Ryan has put a lot of attention on this. In 
fact, the whole consular bureau is rated one of the top areas 
by the American people in terms of service to the public. When 
something like this happens, it is somebody not doing their job 
well. Because however overworked they are, their first response 
is to an American citizen in trouble.
    I would ask you if this happens again to just give me or 
Mary a call because that is not the way she wants that office 
to operate.
    Mr. Gejdenson. Thank you.
    Mr. Bereuter. Thank you very much for your comments.
    I do think that the way we fund our oversees presence is 
unworthy of the United States, and there is a lack of 
confidence in the State Department on Capitol Hill. It is not a 
surprise to you, despite the good people--long-term employees, 
foreign service officers or otherwise--and my concern is that 
this report will not receive the attention and implementation 
that it deserves in part because of inertia, in part because of 
the bureaucratic battles that you will have to fight within the 
Department, and in part because of lack of support here on the 
Hill.
    Commerce, Justice, State and the Judiciary Appropriations 
Subcommittee, Chairman Hal Rogers and I met with Secretary 
Albright at a breakfast to discuss about the report; and I 
really think we need to keep in close contact with you to build 
an acceptance and a positive sense of inertia about the 
implementation of the report.
    I would think we ought to have you up here more often--
frankly, about every quarter--and that there ought at the 
beginning of the new Congress to be established a more 
coordinated fashion to work with you on the part of the 
authorizing Committees. Right now, we are just holding things 
together with Scotch tape, and it is no wonder that people 
won't respond to the concerns of the gentleman's constituent, 
for example, because they are moving from one crisis and one 
special demand to another because of the lack of capabilities. 
That is my assessment. Things are just gradually grinding to a 
halt.
    I do want to come back and, if possible after recessing for 
this vote, talk a little bit about the organization, 
reorganization, and decentralization initiative of our 
Ambassador to France and hear more about the Financial Services 
Office move that you contemplate there. I would also like to 
focus a little bit on information technology where I have just 
heard terrible stories about how bad our capabilities are 
within the State Department. I think that is recognized by you 
probably and certainly by the report.
    With those comments, I think I need to recess, and we will 
resume in approximately 15 minutes. I think Chairman Gilman 
will probably be back at that time.
    The Committee will be in recess.
    [Recess.]
    Mr. Bereuter. The Committee will be in order.
    Madam Under Secretary, I wonder if you or one of your two 
colleagues can address your attitudes, first of all, about the 
recommendations concerning information technology and what it 
is you have been able to or intend to implement in the 
immediate future with respect to upgrading the quality of the 
information technology and communication technology you have 
among the personnel stationed abroad.
    Ms. Cohen. Thank you.
    First, I have to say that I think that the Department's 
information technology is not as abysmal as you had heard. We 
have a new chief information officer who, for the first time in 
the history of the State Department, is an experienced 
information technology specialist. He came to us from the 
Institute of Medicine which is well known for its information 
technology, and we have made substantial progress.
    I have spoken about the Internet. In addition, the 
Department, with the exception of a couple of mainframes, is 
off the dreaded Wang that used to be the chief complaint, and 
we are on a standard platform. So we have made progress.
    We are offering additional training to information 
technology specialists, and we have bonus compensation plans. 
So we have reduced the turnover of these people, and we have 
also begun to be able to recruit new people.
    I know you will be hearing from Fernando Burbano, our chief 
information officer, next week. He has a very comprehensive, 
long term plan for correcting the remaining deficiencies of the 
Department.
    I think that the most critical deficiencies are currently 
overseas. One is the inability of different agencies to 
communicate with each other within an embassy. Because the 
Department of Agriculture, for example, will have its own 
separate computer system making it easier for them to 
communicate back to Washington than it is for them to 
communicate to the FBI or the Ambassador down the hall. That is 
a real deficiency.
    The second deficiency is bandwidth overseas. We really need 
to upgrade that and get all embassies more bandwidth. We have a 
plan to do so and we have the capability, but we are short of 
the funds. I endorse the OPAP report wholeheartedly in that 
area.
    Mr. Bereuter. Thank you.
    I wonder, Ambassador Raspolic, if you can talk about the 
rightsizing and the risk involved in implementing the 
recommendations for the personnel involved, if any, but mostly 
about what the Department intends to do to act upon the 
recommendations with respect to rightsizing and consulates.

     AMBASSADOR ELIZABETH RASPOLIC, DIRECTOR, INTERAGENCY 
                     RIGHTSIZING COMMITTEE

    Ms. Raspolic. I would be glad to speak to that.
    The Committee--the rightsizing committee is very much an 
interagency committee. It is not just State Department. I want 
to make that clear because that is what exactly the original 
OPAP panel has recommended. We have had a very active group 
with representatives from every department that you can think 
of who are active overseas. We have been working on the project 
since the beginning of February. We visited each of the six 
posts with a team that fluctuated from 10 to 12 to 16 people; 
and, in fact, we had one of the appropriations subcommittee 
staff members visiting with us when we went to Bangkok.
    We are in the process now of negotiating our Committee 
report through the various agencies that are involved, and we 
will then submit it to Under Secretary Cohen, who will then 
submit it to the Secretary.
    One of the major recommendations that we are supporting is 
one that appeared in the original OPAP report, and that is the 
creation of an interagency senior government board that would 
create a possibility here for an interagency review in 
Washington of proposed major staffing changes overseas, either 
up or down. It would be a reflection here in Washington of a 
process that already exists overseas in the Ambassador's 
country team when the Ambassador, he or she, sits and meets 
with representatives of all agencies at post. This would be a 
mirror image of that here in Washington.
    That could be--we are suggesting that it be convened in 
November, because at that point several of our other 
recommendations would have come into being and the various 
reports and various actions would have been taken through 
September and October.
    This board would also be used to look at things like when 
there is a construction of a new embassy facility overseas, 
this board could review the staffing implications for that 
given post and say, look, is the construction adequate for the 
projected staffing over X number of outyears; and this is 
something that Under Secretary Cohen has already put into 
implementation. Our Committee has been invited to participate 
in several reviews that Secretary Cohen is conducting on 
construction of facilities overseas in the near future.
    We have also recommended--we have discussed the 
recommendation that the Attorney General has proposed creating 
a law enforcement pilot project; and we have--on the basis of 
our visits have recommended that the law enforcement project 
take place at Embassy Mexico City and Embassy Bangkok because 
we felt that those posts offered the most productive mix of law 
enforcement agencies and the fact that those agencies had a 
certain amount of depth at each of those posts.
    Mr. Bereuter. Those are meant to be tests or prototypes?
    Ms. Raspolic. Correct. I believe that was Attorney General 
Janet Reno's original implication, that these would be--that 
whatever is developed from these projects could be used 
elsewhere. But I am sure Ambassador Chamberlin can speak more 
adequately on that subject.
    One thing we have found, though, if you can assume that our 
visits to six posts are illustrative of all posts overseas, 
which perhaps is a major jump, that it makes no sense to 
implement some cookie-cutter template and force all posts 
overseas to, in effect, look alike. Because in effect what we 
found is each post is absolutely unique, depending on the 
strategic goals of that post, depending on the mix of agencies 
at that post, depending on what it is that the Secretary and 
the Department of State have and the Ambassador have chosen to 
emphasize at that post; and the mix is constantly changing and 
requires different staffing of each agency at each embassy.
    Mr. Bereuter. Thank you, Mr. Chairman. If you are ready, I 
will take another time later.
    Chairman Gilman [presiding]. Thank you, Mr. Bereuter.
    Ms. Cohen, your statement mentions your monthly interagency 
meetings. Have you prepared an action plan to implement the 
OPAP recommendations and are you measuring progress on the 
various recommendations. Also what measures are being used to 
evaluate the progress on implementation?
    Ms. Cohen. We do have monthly meetings, and it depends on 
the specific area. I have seen a draft report, and the draft 
report does have action steps recommended in each area, and it 
says the status of each area and the timing. It doesn't 
necessarily have monthly objectives.
    For example, in FBO, I receive quarterly reports on our 
high-priority projects. I receive similar updates on our 
personnel initiatives. As we go forward with the rightsizing, 
the additional reforms of FBO and the other recommended steps, 
I anticipate that we will have quarterly progress reports.
    Chairman Gilman. Does the Department have a structured 
timetable for implementation as it relates to the OPAP's 
recommendations and can it be made available to this Committee 
if you have such a program? Has the President been briefed on 
the progress that the Department is making on OPAP 
recommendations?
    Ms. Cohen. The interagency task force, when established by 
the Secretary, was asked to report back to her at the end of 
this month. We anticipate that it is on schedule and that she 
will get a report. She will review the report, and then share 
it with the Administration. Then I am sure it will be available 
to you.
    Chairman Gilman. Has the President expressed interest in 
the report?
    Ms. Cohen. We have had very strong support from the White 
House all along, and we have had a senior official from OMB 
sitting in on our monthly meetings.
    Chairman Gilman. With regard to the Chief of Mission 
authorities, the Department's March report on the panel's 
recommendations states that, given the time required to 
complete interagency review coordination clearance, and I 
quote, ``we should defer new documentation outlining Chief of 
Mission authority until next year when it can be taken up by 
the next administration.'' Can you elaborate on the COM 
authority and how it is conveyed and what is the interagency 
role in that matter and is the authority under discussion by 
your rightsizing Committee?
    Ms. Cohen. I think I will defer to Carolyn Lowengart, who 
is our expert.
    Chairman Gilman. Ms. Lowengart, will you step up to the 
mike and indicate your title? Did you hear the question, Ms. 
Lowengart? Please identify yourself.

CAROLYN LOWENGART, DEPUTY DIRECTOR OF THE OFFICE OF MANAGEMENT 
         POLICY AND PLANNING, U.S. DEPARTMENT OF STATE

    Ms. Lowengart. I am the Deputy Director of the Office of 
Management Policy and Planning. I have been with the Department 
nearly 30 years, so I have seen this Presidential letter of 
instruction through several administrations.
    Chairman Gilman. Thirty years and still learning.
    Ms. Lowengart. The reason for the timeline is that it 
historically takes between 12 and 24 months to get this letter 
written and negotiated interagency, so there isn't enough time 
left in this Administration to get it all the way through.
    Chairman Gilman. How long a time does it take to get a 
letter written?
    Ms. Lowengart. The last one took 18 months to get it 
negotiated. Written, it takes about a day.
    Chairman Gilman. It is a little faster than what we do up 
here, I guess.
    Is the authority under discussion by the rightsizing 
committee?

    WENDY CHAMBERLIN, PRINCIPAL DEPUTY ASSISTANT SECRETARY, 
   INTERNATIONAL NARCOTICS AND LAW ENFORCEMENT AFFAIRS, U.S. 
                      DEPARTMENT OF STATE

    Ms. Chamberlin. No, sir.
    Chairman Gilman. Not under discussion.
    What recommendations for changes in the Chief of Mission 
authority would you make to the next administration? Any of the 
panelists.
    Ms. Cohen. We have not developed those yet. We are in the 
process of getting the report, and then over the summer and 
into the fall we will be implementing what we can and 
developing strong recommendations for the next administration. 
We agree with you that it is really an outstanding report, and 
our major objective is to see that additional studies don't get 
done but rather that implementation is carried forward.
    Chairman Gilman. We don't want to study this to death.
    Ambassador Raspolic, what criteria are you using to 
evaluate the posts for the purposes of determining appropriate 
staff levels?
    Ms. Raspolic. Mr. Chairman, that is a very interesting 
question because it has been the source of much discussion 
among our Committee Members. We have tried various criteria. We 
have tried to look at the mission's strategic goals which is--
in bureaucratic terms--part of the mission performance plan. It 
is a document that is negotiated at every post around the world 
by the Ambassador and the various interagency members of the 
country team.
    We have looked at the goals that have been given top 
priority at each individual post. Then we have looked at how 
the various agencies are selected to implement each of these 
goals and how a goal cuts across agency lines and what kind of 
cooperative effort is taking place at a given post. We have 
looked at whether or not a post is providing regional services, 
because this directly affects their staffing, also.
    We have looked at whether a post uses a process that was 
initiated by Ambassador Rohatyn in Paris, and that is the 
American presence post. Are they using satellite post 
activities? We have found this in two or three posts but in 
different variations.
    In France, it is one American and two Foreign Service 
national employees at a given post, very low budget, very low 
key, and in most instances quite effective.
    In India, they have been doing this for an even longer 
period, but it does not--in their implementation it does not 
involve an American officer. It is Foreign Service nationals 
who are running small outlying foreign commercial service 
operations, and then they report back to the local consulate.
    It seems to be very, very effective; and it has proved very 
useful for American business overseas.
    In Mexico, I believe, we saw some operations--some DEA 
activities in cities where there formerly had been a consulate, 
where the consulate has been closed but a DEA officer operates 
independently.
    So there are many variations. These are all some of the 
criteria that we looked at, and this ultimately is what brought 
us back to what I had referred to earlier and that is that each 
post is so very different and so unique that we felt we could 
not simply sit back in Washington and apply some template that 
would be appropriate to all overseas posts.
    Chairman Gilman. Ms. Cohen, it seems to me it would be 
useful to institute some market forces such as a capital 
surcharge for agencies at posts noted in your statement and to 
make certain the Department captures the full cost of staff 
presence at the post. Presumably, that would influence the 
decision process of other agencies that are increasingly 
responsible for growth overseas. Do you think a capital 
surcharge or other like ideas would provide an incentive to 
encourage participation in rightsizing?
    Ms. Cohen. Absolutely. We have support from the other 
agencies for such a concept as long as the first time we apply 
it they get a budget bump-up to cover the surcharge. But I 
think in the long run that would be money well spent for 
America. I anticipate that we would, with the Secretary's 
support, go forward with that recommendation in our budget 
proposals and our suggestions to the next administration.
    One of the real problems we have is that space in our 
embassies is free to agencies. So when a department, and I 
won't mention any departments, decides to send five people to 
an embassy and then wants three Foreign Service nationals as 
support, they think only of the salary costs and not of the 
space. As you know full well, space in our embassies is 
unbelievably expensive because of the security requirements.
    Chairman Gilman. Speaking of security, recent press reports 
indicate that there are seven Ambassadorial nominees that have 
incurred over 100 security violations and infractions. What are 
your thoughts on that and what personnel actions should be 
instituted against those who commit egregious security 
violations? Do you think there ought to be a change in the regs 
that govern the actions taken against those individuals? Should 
there not be more severe consequences?
    Ms. Cohen. Diplomatic security and personnel are in the 
process of working out again changes with the legal office 
right now. I think that the history of the State Department has 
been that the penalties have not been as clear as they should 
be, they haven't been applied uniformly, and in some instances 
they probably haven't been as stringent as they should be. But 
this is a different security environment and I anticipate we 
will have recommendations for action.
    Chairman Gilman. Thank you.
    Mr. Houghton.
    Mr. Houghton. No questions, Mr. Chairman.
    Chairman Gilman. Mr. Bereuter.
    Mr. Bereuter. Thank you, Mr. Chairman.
    I am very interested, by the way, in what our Ambassador of 
France is attempting to do with the decentralized effort. 
Despite some of the people who aren't enthused about leaving 
Paris, I think that probably we are providing better and more 
effective service to our constituents, to business, and to 
interfacing with the French public.
    Madam Under Secretary, I think your statement says you are 
recommending a capital surcharge to agents at post to assist 
with capital costs. You mentioned a personnel cost just a 
minute ago. What is the status of that recommendation and do 
you have an estimate of how much money this would generate for 
the Department?
    Ms. Cohen. The status of that recommendation is that the 
FBO subcommittee of the interagency task force has, in a 
preliminary report, indicated that they will be strongly 
recommending a capital surcharge. We haven't had the final 
meeting, it will be held next week, but I anticipate that there 
will be a recommendation and that it will have interagency 
support. They may have numbers that give an estimate of that, 
but I don't have them today.
    Mr. Bereuter. What are your thoughts about creating an OPAP 
czar to oversee the OPAP's recommendation and track the 
Department's progress? Or are you the czar?
    Ms. Cohen. Up here or down there? At the State Department?
    Mr. Bereuter. At the State Department.
    Ms. Cohen. I am opposed to that. I am opposed to all these 
special things. I think there are people at the Department who 
have responsibility for whatever the specific things are, and 
they should be held accountable for implementing them. If you 
created a special czar, then I would have the opportunity to 
relax.
    Mr. Bereuter. I did not hear, unless you pursued it when I 
was out of the room, the issue of the Chief of Mission 
authorities. Did, in fact, you then ask for recommendations for 
changes in the Chief of Mission authority? You got their 
impressions of recommended changes in Chief of Mission 
authorities?
    Counsel. They deferred.
    Mr. Bereuter. Are you in a position to give me an 
indication of what rank and file Foreign Service officers think 
about the recommendations of the report? For example, where 
might they take greatest exception or have the greatest 
concerns, if at all? I know they are going to be generally 
supportive, but if you had to say where they had particular 
concerns, any, distinguished ladies, where would it be?
    Ms. Cohen. If I can start, I would not speak for the 
Foreign Service. You will have Mark Grossman up here who is our 
new Director General of the Foreign Service and Director of 
Human Resources in a month or so. I have only been at the 
Department for 3 years and don't have the background, but I 
will say this.
    We have had a town meeting where Lew Kaden came and talked 
about the report. We videotaped it. We sent it overseas. We 
sent the text of the report overseas. He has met with AFSA. My 
impression is, on the whole, it has very strong support because 
it is meant to strengthen the State Department and the Foreign 
Service and training and our attention to their personnel 
needs. There may be specific things that are at issue which he 
would address, but perhaps you have different ideas.
    Mr. Bereuter. Ambassador Chamberlin, you are our Foreign 
Service Officer. You can't speak for them all, but you can give 
your impression.
    Ms. Chamberlin. I can't speak for them all, but I can speak 
from 25 years of experience. As the newest member of this team, 
I am, I guess, the closest thing to an outsider on the OPAP 
team.
    The Kaden report was not done haphazardly, and it was not 
done piecemeal. It was exhaustive. They even came to Laos.
    Mr. Bereuter. They even came to Capitol Hill.
    Ms. Chamberlin. Wow. They really reached far and wide to 
gather our thoughts and our impressions. Believe me, Foreign 
Service Officers around the globe offered very candid views. A 
year later, when I read the final report, I was extremely 
impressed. I was enormously impressed and can say personally I 
wouldn't be able to answer your question. I don't know what I 
would object to in that report. I am not just saying this 
because I am sitting next to Under Secretary Cohen. It is a 
personal view that I believe.
    But to echo what you have said, implied in some of your 
questions, I think the rank and file's view would be, OK, we 
have seen a lot of these reports in the past. We would also 
like implementation. Because, let's face it, the results of 
this report would strengthen security and this means security 
for not only ourselves but our families. So I find support, but 
I would find a restlessness to see it implemented.
    Mr. Bereuter. Ambassador, would you care to comment?
    Ms. Raspolic. If I can add a few words. I agree with what 
both of my colleagues have said.
    I would also add, in our visits to posts overseas, we were 
struck by the enormously welcoming approach that every post 
had. Individual officers are very interested in sitting back 
and looking at how the Department works and how the Foreign 
Service operates and what can be done to improve it. These are 
thinking, intelligent individuals who understand that 
technology has changed the world, perhaps not as quickly within 
the Department. They are very, very interested in the idea of 
an IT subcommittee looking at these issues, and they see how it 
could be used to improve their own output. I think they are 
very, very interested in supporting OPAP.
    Mr. Bereuter. If I could switch questions on you, in 
particular, Ambassador, just as my final question here today at 
least, will the rightsizing group make recommendations about 
specific embassies that perhaps, given the qualified personnel 
we have spread around the world, should be downsized--actual 
embassies or consulates?
    Ms. Raspolic. Sir, if I may say, I think our 
recommendations are a mixed bag, just as the initial report 
was. In some instances, we are recommending a downsizing in the 
sense of changing--eliminating some positions and transferring 
some positions overseas back to the United States to decrease 
or lower the official presence overseas. In a couple of 
instances, we are questioning whether or not these posts need 
more people to perform the many obligations that had been laid 
on them. So it will be some of each, I suspect.
    Mr. Bereuter. Do you think the way the world is evolving 
and with the information technology we have and with the 
multiagency reputation in our embassies today that the 
Ambassador's job is more challenging or that it is less 
manageable, that is, less attractive for a political appointee 
or for a career officer? Are you looking in any detail as a 
result of this data yet, the Ambassador's duties?
    Ms. Cohen. I meet with almost every Ambassador who goes 
overseas or comes back to the United States, and they find it 
very challenging. They find it some of the most interesting 
work they have ever done, and it is very special in a foreign 
country to represent the United States. But, as a person, they 
are shocked when they get overseas to see the condition of our 
embassies, which I know you all have seen, to see the condition 
of our data processing equipment, to see that they have 
positions that they consider critical that go empty because we 
don't have people to fill them. So they are more challenged 
than they would like to be.
    Chairman Gilman. Would the gentleman yield for a point? 
What would it take to bring all our data processing equipment 
up to date in all of our embassies? It seems to me that is a 
basic tool we have today. Why can't that be a priority?
    Ms. Cohen. It is a priority for us. That is why I mentioned 
the $17 million. I met with your staff yesterday. They cited I 
think it is the CSIS report that said it would take $400 
million. My experience prior to the government is that you 
never really know the cost in data processing. That is why we 
wanted $17 million, to be able to implement two large embassies 
and a small embassy and then come back to you and say, all 
right, this is exactly what it will cost. It will be, a couple 
hundred million dollars. But as I said in my beginning 
statement and, I suppose after----
    Chairman Gilman. Let me interrupt you. It seems Microsoft 
could use a little goodwill these days. You might approach 
them. They are doing it for schools. Why not do it for our 
embassies? We go out and reach out to the art community to 
furnish the State Department. It seems to me that we could 
welcome some donations from the telecommunication industry.
    Ms. Cohen. I defer to you, sir.
    Chairman Gilman. I defer to you. You are the czarina in 
charge of this.
    Ms. Cohen. I have very strict, stringent fund-raising 
restrictions on me.
    Chairman Gilman. I think we ought to explore it. Mr. 
Houghton is in charge of mainstream business people. We will 
work with him and see what can be done in that direction.
    But, seriously, it should be a priority and not just wait 
for an example of what happens in one embassy. These are 
serious problems in all of our embassies.
    Ms. Cohen. Honestly, we really appreciate your support, all 
of your support. This is, for me, very refreshing to hear. This 
is a Department that needs investment, and I said at the 
beginning our diplomats are there ahead of the military, and it 
is hard to explain why there is as little investment as there 
is in our personnel----
    Chairman Gilman. Time we got rid of the smoke signals and 
got some real telecommunication.
    Mr. Bereuter, any further questions?
    Mr. Bereuter. No. I would just say this is a Department 
whose overseas presence, as it is funded, is not worthy of this 
great country. I said that earlier. It is not, and it is 
getting relatively worse. Thank you, Mr. Chairman.
    Chairman Gilman. I want to welcome this update. I want to 
keep communication open with you on your recommendations and 
the implementation. Rightsizing has been talked about for 
years, and maybe we are finally getting some traction on that 
issue. Properly aligning our posts to the policy mission is 
fundamental to modernizing the State Department.
    We thank our panelists for being able to be here. Sorry you 
were delayed today because of our markup. I want to thank our 
colleagues who stood with you to the end. Thank you.
    The meeting stands adjourned.
    [Whereupon, at 1:05 p.m., the Committee was adjourned.]
      
=======================================================================




                            A P P E N D I X

                             June 15, 2000

=======================================================================

      
    [GRAPHIC] [TIFF OMITTED] T6308.001
    
    [GRAPHIC] [TIFF OMITTED] T6308.002
    
    [GRAPHIC] [TIFF OMITTED] T6308.003
    
    [GRAPHIC] [TIFF OMITTED] T6308.004
    
    [GRAPHIC] [TIFF OMITTED] T6308.005
    
    [GRAPHIC] [TIFF OMITTED] T6308.006
    
    [GRAPHIC] [TIFF OMITTED] T6308.007
    
    [GRAPHIC] [TIFF OMITTED] T6308.008
    
    [GRAPHIC] [TIFF OMITTED] T6308.009
    
    [GRAPHIC] [TIFF OMITTED] T6308.010
    
    [GRAPHIC] [TIFF OMITTED] T6308.011
    
    [GRAPHIC] [TIFF OMITTED] T6308.012
    
    [GRAPHIC] [TIFF OMITTED] T6308.013
    
    [GRAPHIC] [TIFF OMITTED] T6308.014
    
    [GRAPHIC] [TIFF OMITTED] T6308.015
    
    [GRAPHIC] [TIFF OMITTED] T6308.016
    
    [GRAPHIC] [TIFF OMITTED] T6308.017
    

</pre></body></html>
